                              Office of the Inspector General

June 18, 1999

John R. Dyer
Principal Deputy Commissioner


Acting Inspector General


National Office of Disability Budgeting: Excess Funding Authority and Obligations


Attached is a copy of our final report entitled, “National Office of Disability Budgeting:
Excess Funding Authority and Obligations” (A-13-98-72008). The objective of this
audit report is to identify excess funding authority and obligations that warrant
management’s attention.

You may wish to comment on any further action taken or contemplated. If you choose
to offer comments, please provide them within the next 60 days. If you wish to discuss
the final report, please call me or have your staff contact Daniel R. Devlin, Acting
Assistant Inspector General for Audit, at (410) 965-9700.




                                                 James G. Huse, Jr.

Attachment
                OFFICE OF

         THE INSPECTOR GENERAL



     SOCIAL SECURITY ADMINISTRATION




      NATIONAL OFFICE OF DISABILITY
       BUDGETING: EXCESS FUNDING
       AUTHORITY AND OBLIGATIONS

          June 1999   A-13-98-72008




     AUDIT REPORT





.

                             Office of the Inspector General


John R. Dyer
Principal Deputy Commissioner


Acting Inspector General


National Office of Disability Budgeting: Excess Funding Authority and Obligations


OBJECTIVE

The objective of this audit report is to identify excess funding authority and obligations
that warrant management’s attention.

BACKGROUND

The Disability Insurance (DI) program, established in 1954 under title II of the Social
Security Act (Act), is designed to provide benefits to disabled wage earners and their
families in the event the family wage earner becomes disabled. In 1972, Congress
enacted title XVI, the Supplemental Security Income (SSI) program (Public Law
92-603) which provides for a nationally uniform program of income and disability
coverage to financially needy individuals who are aged, blind, or disabled.

The Social Security Administration (SSA) is primarily responsible for implementing the
general policies governing the development of disability claims under the DI and SSI
programs. Disability determinations under both DI and SSI are performed by an
agency in each State in accordance with Federal regulations. In carrying out its
obligation, the Disability Determination Service (DDS) within each State agency (SA) is
responsible for determining the claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper
disability determinations, each SA is authorized to purchase medical examinations, x-
rays, and laboratory tests on a consultative basis to supplement evidence obtained
from the claimants’ physicians or other treating sources.

SSA pays DDSs for 100 percent of allowable expenditures. Each year, SSA
determines the amount of funding authorization. Once approved, each SA is allowed to
withdraw Federal funds through the Payment Management System (PMS) within the
U.S. Department of Health and Human Services (HHS) for reimbursement of program
Page 2 – John R. Dyer

expenses. At the end of each quarter of the Federal Fiscal Year (FY), each SA submits
to SSA a "State Agency Report of Obligations for SSA Disability Programs" (Form
SSA-4513). An advance or reimbursement for costs under the program must be made
according to the Office of Management and Budget’s Circular A-87, “Cost Principles for
State, Local, and Indian Tribal Governments.” SSA’s funding levels are reported on the
“State Agency Obligational Authorization for Disability Programs” (Form SSA-872).
SSA’s Program Operations Manual System (POMS) DI 39506.200 (C)(5) states that: “It
may occasionally be necessary to reduce the cumulative quarterly obligational
authorization for certain State agencies.” It further states that:

     “If it becomes clear that an agency will not need, in any period, as much
     obligational authority as has been authorized, the authorization will be
     reduced. However, such reduction will be made only after advance
     consultation between the regional office and the State agency.”

Accordingly, these reductions are reflected on the Form SSA-872.

As indicated in the management advisory report (MAR) on, “Office of Disability
Budgeting Issues” dated April 29, 1998 (CIN: A-13-98-72006), we detected and
reported conditions impacting internal controls over budgeting practices. This MAR,
which focused on the Pennsylvania DDS, cited $5,713,195 in excess funding authority.
We recommended that SSA:

   •	 reduce DDS total funding authorization by $5,713,195 for unobligated funds from
      FYs 1994 through 1996;

   •	 implement policy establishing time frames within which funding authority should
      be reduced; and

   •	 instruct the Office of Disability (OD) personnel to adhere to POMS 39506.200
      and the related policy on timeliness.

SSA agreed with our findings and planned to take immediate action to reduce the
excess authority. SSA also agreed that there was no existing policy that establishes
when adjustments should be reduced. SSA will address the lack of firm procedures
during the next POMS rewrite.

SCOPE AND METHODOLOGY

We limited our audit to the review of the DDS documentation maintained by OD located
in SSA Headquarters in Baltimore, Maryland. Our review focused on financial
information appropriate to FYs 1994 through 1996 funding as of December 1997. We
conducted our field work during May 1998 in accordance with generally accepted
government auditing standards.
Page 3 – John R. Dyer

Our methodology included reviewing Federal laws, regulations, and instructions
pertaining to administrative costs incurred by DDSs and to the draw down of Federal
funds. We reviewed all 54 of the DDSs’ reports (Forms SSA-872 and SSA-4513) and
PMS Synchronization Reports to determine the existence of excess authorizations,
obligations, and draw downs for the FYs ended 1994 through 1996. Our audit focused
on budgetary information supplied by State DDSs and maintained by OD. This
information represents the best available data concerning DDS funding.

The Form SSA-4513 expenditure reports are produced by State DDSs, Form SSA-872
budget authorization amendments are determined and produced by OD, and PMS
Synchronization Reports are prepared by HHS. This audit will assist OD in identifying
the existing excess authority and obligations that should be adjusted and is one in a
series of the Office of the Inspector General (OIG) audit reports dealing with OD
budgeting issues.

RESULTS OF REVIEW

We identified two conditions that indicate the need for improved internal controls over
DDS budgeting. First, OD did not reduce approximately $31.7 million in excess DDS
funding authority for FYs 1994 through 1996 (see Appendix B). Second, DDSs
reported $870,010 in obligations that exceeded funding authority (see Appendix C).
These findings suggest that some DDSs may have had excess funding authority while
others may have incurred obligations that exceeded the DDSs’ budget authority.

DDS Excess Funding Authority

OD did not prepare Forms SSA-872 to reduce total funding authorization (i.e.,
obligational authority) for the 54 DDSs reviewed for over $31.7 million of unobligated
funds for FYs 1994 through 1996. In addition, because SSA’s POMS does not
prescribe a time frame for reducing such authority, the $31.7 million was still on the
DDS Forms SSA-4513 we obtained from OD. SSA should begin reducing the total
funding authorization on Form SSA-872 to bring the DDS obligational authority in line
with actual obligations. The breakdown of excess authority by FY is as follows:

                                   FY 1994            FY 1995           FY 1996
       Excess Authority         $10,313,886       $ 8,306,226        $13,045,257
      The total for the 3 FYs represents $31,665,369 in excess authority.

SSA policy allows for the reduction of obligational authority. Specifically SSA’s POMS
DI 39506.200 (C)(5) states that: “If it becomes clear that an agency will not need, in
any period, as much obligational authority as has been authorized, the authorization
will be reduced.” However, OD does not conduct periodic reviews to reduce budget
authorization on a regular basis.
Page 4 – John R. Dyer

The failure to reduce funding authorization increases the risk of excess draw downs
occurring. An excess draw down occurs when a DDS draws down funds that are
greater than the reported obligations reflected on the Form SSA-4513. OIG has cited
DDS draw down issues in prior OIG audit reports. For example, in our audit of the
Maryland DDS, we determined that $773,003 of excess draw downs occurred. 1 This
risk affirms the need for OD to conduct a periodic review of excess authority for DDSs
and timely reduction of budget authority.

OD acknowledges the risk of excess draw downs. Officials from the OD agreed that at
a minimum, excess obligational authority should be reduced on an annual basis. The
Department of the Treasury’s Automated Standard Application for Payments system,
implemented in FY 1997 for DDS draw down purposes, is expected to improve
oversight of DDS draw downs. Further, officials state that OD works with SSA’s Office
of Finance to resolve draw down issues on a case-by-case basis, and relies on audits
to highlight draw down problems. OD is reviewing DDS excess obligational authority
and issuing SSA-872s to reconcile DDS authority.

DDS Excess Obligations

Four DDSs obligated $870,010 in excess of their budget authority. These DDSs
reported obligations in excess of budget authority on their December 1997
Form SSA-4513 report. An excessive obligation over budget authority occurs when a
DDS reports obligated funds on the Form SSA-4513 in a greater amount than the
budget authority reported on the Form SSA-872.

Our analysis shows excess obligation reporting occurring from March 1995 through
December 1997. For example:

•	 The Colorado DDS’ SSA-4513 reported excess obligations from September 1996 to
   December 1997. SSA reduced Colorado’s obligational authority in
   September 1997, but the Colorado DDS continued to report excess obligations.

•	 The Michigan DDS’ SSA-4513 reported excess obligations from March 1996 to
   December 1997.
•	 The New York DDS’ SSA-4513 reported excess obligations from June 1995 to
   December 1997.

•   The Washington DDS’ SSA-4513 reported excess obligations from March 1995 to
    December 1997.
POMS DI 39506.803 A2 defines obligational authority as the monetary limit approved
for SA obligations to be incurred for disability program operations. As a result, DDSs



1
 Audit of Administrative Costs Claimed by the Maryland State Department of Education for its Disability
Determination Services, June 1997, CIN: A-13-96-25000.
Page 5 – John R. Dyer

are reporting obligations for which there is no funding authority. Additional funding
authority may be needed for the excess obligations.

OD personnel stated that a DDS might obligate funds in excess of authority based on
specific workloads. Generally, when apprised of increases in workloads, OD increases
the DDS budget authority. Because our review was limited to information maintained
by OD, we did not determine the cause for the excess obligations. However, OD
acknowledges excess obligation as an issue it is attempting to resolve.

CONCLUSIONS AND RECOMMENDATIONS

Based on our analysis of DDS fiscal documents, we believe OD should improve its
fiscal oversight of DDS reporting so that the conditions discussed in this report can be
identified and/or prevented.

We believe this report will assist OD in implementing its planned changes in the budget
oversight area, as well as, improve the Agency’s fiscal accountability. To assist OD in
taking corrective action, we have provided listings (see Appendices B & C) of DDSs
and the related amounts of excess funding authority and excess obligations.

We recommend that OD:

1. 	 reduce total DDS funding authorization by $31,665,369 for unobligated funds from
     FYs 1994 through 1996;

2. 	 ensure that periodic reviews of funding authority are conducted and establish time
     frames within which funding authority should be reduced; and

3. 	 determine the reasons for excess obligations and implement appropriate
     procedures to resolve excess obligations.

AGENCY COMMENTS

SSA agreed with our recommendations and has taken action to implement them.
Appendix A includes a copy of the complete text of SSA’s comments.
Page 6 – John R. Dyer

OIG RESPONSE

We obtained documentation to review SSA action on these recommendations. SSA
has substantially implemented these recommendations. For example, SSA has
reduced total FYs 1994 through 1996 DDS funding authorization by $33,966,800. This
exceeds the amount we recommended by more than $2.3 million.




                                            James G. Huse, Jr.
APPENDICES

                        APPENDIX A



S S A C O M M E N TS

                                                               APPENDIX B



   C H AR TS O F E X C E S S F U N D I N G 

             AU TH O R I TY


                     CHART 1: Fiscal Year 1994
               (A)                    (B)                (C)=(B)-(A)
           Form-4513         Form-872 Authorization        Excess
       Obligation Amount            Amount            Funding Authority
ME            $ 4,629,281             $ 4,629,281                 $      -
CT               11,495,786              11,495,786                      -
MA               30,045,568              30,045,568                      -
NH                 2,776,949              2,776,949                      -
RI                 4,364,300              4,364,300                      -
VT                 1,689,601              1,689,601                      -
NJ               33,704,541              34,477,680                773,139
NY              107,840,643             107,819,093                      -
PR                 9,628,827              9,698,095                 69,268
DE                 2,500,653              2,500,653                      -
DC                 4,297,382              4,303,416                  6,034
MD               14,653,049              14,844,712                191,663
PA*              44,749,797              46,221,594              1,471,797
VA               18,805,502              19,290,080                484,578
VW               13,138,555              13,138,555                      -
AL               23,407,287              23,542,524                135,237
FL               46,403,050              46,494,624                 91,574
GA               30,637,721              30,840,457                202,736
KY               21,692,322              21,734,762                 42,440
MS               20,560,521              20,737,776                177,255
NC               23,434,029              23,519,720                 85,691
SCVR             15,887,749              15,988,511                100,762
SCBL                  58,051                 59,943                  1,892
TN               26,949,589              28,319,198              1,369,609
IL               56,803,606              57,067,200                263,594
IN               19,637,007              20,124,185                487,178
MI               53,148,832              54,063,610                914,778
MN               13,142,107              13,171,055                 28,948
OH               53,283,310              54,280,722                997,412



                                    B-1

                          CHART 1: Fiscal Year 1994
                 (A)                    (B)                 (C)=(B)-(A)
             Form-4513         Form-872 Authorization         Excess
         Obligation Amount            Amount             Funding Authority
WI                 15,951,416              16,154,353                  202,937
AR                 13,331,252              13,516,574                  185,322

LA                 30,835,798              30,993,241                  157,443

NM                   7,254,711              7,277,054                   22,343

OK                 10,220,137              10,286,194                   66,057

TX                 74,559,535              75,259,919                  700,384

IA                   8,183,511              8,187,225                    3,714

KS                   8,640,995              8,848,667                  207,672

MO                 22,676,010              22,693,260                   17,250

NE                   4,284,497              4,325,212                   40,715

CO                 12,079,591              12,191,736                  112,145

MT                   3,047,896              3,061,850                   13,954

ND                   1,281,459              1,285,840                    4,381

SD                   1,671,069              1,683,108                   12,039

UT                   3,632,974              3,669,621                   36,647

WY                   1,184,623              1,219,687                   35,064

AZ                 12,699,494              12,811,657                  112,163

CA                141,961,447             143,618,301                1,656,854

GUAM                    80,749                 80,749                         -

HI                   3,214,347              3,364,955                  150,608

NV                   4,710,340              4,710,341
                       1
AK                   2,808,003              2,960,408                  152,405

ID                   3,027,911              3,027,911                        -

OR                   9,635,319              9,635,319                        -

WA                 18,336,014              18,302,596                        -

Total                                                             $ 10,313,886
      *PA not included in National Total




                                           B-2

                     CHART 2 : Fiscal Year 1995
               (A)                   (B)                (C)=(B)-(A)
       Form-4513 Obligation Form-872 Authorization    Excess Funding
             Amount                Amount                Authority
ME                $ 4,900,340           $ 5,066,998            $ 166,658

CT                 12,342,476            12,342,476                     -

MA                 29,404,236            29,404,236                     -

NH                  3,011,404             3,011,404                     -

RI                  4,158,665             4,158,665                     -

VT                  1,848,804             1,848,804                     -

NJ                 35,887,946            36,167,849              279,903

NY               113,618,126           113,618,126                      -

PR                 11,552,978            11,652,595                99,617

DE                  2,973,917             2,973,917                     -

DC                  3,927,808             3,927,808                     -

MD                 14,627,880            14,627,880                     -

PA*                50,182,227            52,424,231            2,242,004

VA                 20,118,041            20,118,041                     -

VW                 13,466,497            13,466,497                     -

AL                 25,585,721            25,720,234              134,513

FL                 53,220,906            53,220,906                     -

GA                 33,436,517            33,659,978              223,461
KY                 23,782,402            23,848,495                66,093
MS                 18,450,578            18,597,095              146,517
NC                 26,663,216            26,927,631              264,415
SCVR               15,353,012            15,494,509              141,497
SCBL                   60,819                62,799                 1,980
TN                 28,799,438            28,801,700                 2,262
IL                 56,228,407            56,375,675              147,268
IN                 20,115,335            20,460,728              345,393
MI                 54,569,531            54,048,686                     -
MN                 12,904,524            12,932,469                27,945
OH                 56,360,472            56,360,472                     -
WI                 15,586,342            15,756,162              169,820
AR                 11,991,526            12,139,901              148,375
LA                 29,049,957            29,466,375              416,418
NM                  7,486,733             7,606,703              119,970
OK                 10,967,156            11,131,072              163,916
TX                 73,117,084            74,732,749            1,615,665
IA                  9,012,964             9,055,299                42,335
KS                  9,279,870             9,354,460                74,590



                                 B-3

                           CHART 2 : Fiscal Year 1995
                  (A)                   (B)                (C)=(B)-(A)
          Form-4513 Obligation Form-872 Authorization    Excess Funding
                Amount                Amount                Authority
MO                    22,822,434            23,193,759              371,325

NE                     5,021,768             5,130,698              108,930

CO                    12,072,582            12,155,713                83,131

MT                     2,914,015             2,919,366                 5,351

ND                     1,242,389             1,242,560                   171

SD                     1,969,671             1,976,750                 7,079

UT                     4,057,227             4,129,491                72,264

WY                     1,367,929             1,372,576                 4,647

AZ                    13,381,743            13,705,950              324,207

CA                  145,178,011           147,330,216             2,152,205

GUAM                      84,232                86,114                 1,882

HI                     3,439,310             3,610,094              170,784

NV                     5,034,809             5,096,126                61,317

AK                     3,058,151             3,058,151                     -

ID                     3,046,569             3,085,898                39,329

OR                    10,979,110            10,979,110                     -

WA                    18,774,300            18,879,293              104,993

Total                                                           $ 8,306,226
      *PA not included in National Total




                                           B-4

                    CHART 3: Fiscal Year 1996
               (A)                   (B)                (C)=(B)-(A)
       Form-4513 Obligation Form-872 Authorization    Excess Funding
             Amount                Amount                Authority
ME                $ 5,318,868           $ 5,464,019            $ 145,151

CT                 12,842,433            12,860,330                17,897

MA                 27,939,287            27,939,317                    30

NH                  2,991,576             3,043,206                51,630

RI                  4,077,254             4,077,254                     -

VT                  2,076,312             2,091,963                15,651

NJ                 31,808,108            32,159,621              351,513

NY               117,644,169           117,644,169                      -

PR                 10,740,223            10,890,353              150,130

DE                  2,715,670             2,715,670                     -

DC                  3,586,363             3,636,162                49,799

MD                 14,287,932            14,287,932                     -

PA*                50,748,978            52,726,638            1,977,660

VA                 19,118,764            19,238,040              119,276

VW                 13,313,822            13,705,246              391,424

AL                 24,784,072            24,862,068                77,996

FL                 50,675,277            50,675,277                     -

GA                 32,872,885            33,140,482              267,597
KY                 26,243,969            26,243,970                     1
MS                 17,074,369            17,917,109              842,740
NC                 27,748,368            28,069,463              321,095
SCVR               16,113,390            16,227,094              113,704
SCBL                   52,590                52,590                      -
TN                 26,970,186            28,034,784            1,064,598
IL                 54,226,289            54,453,358              227,069
IN                 20,591,763            20,983,643              391,880
MI                 54,294,860            54,609,467              314,607
MN                 14,741,168            14,877,558              136,390
OH                 52,596,246            52,596,246                     -
WI                 16,480,185            16,720,217              240,032
AR                 12,924,063            12,924,328                   265
LA                 28,784,178            28,848,302                64,124
NM                  7,829,769             7,844,136                14,367
OK                 11,758,649            12,090,043              331,394
TX                 64,737,130            67,666,062            2,928,932
IA                  9,406,295             9,416,801                10,506
KS                  9,391,112             9,403,708                12,596



                                 B-5

                           CHART 3: Fiscal Year 1996
                   (A)                   (B)                (C)=(B)-(A)
           Form-4513 Obligation Form-872 Authorization    Excess Funding
                 Amount                Amount                Authority
MO                     24,859,740            24,859,740                    -

NE                      4,645,448             4,696,566               51,118

CO                     12,457,663            12,163,466                    -

MT                      3,067,897             3,080,716               12,819

ND                      1,264,918             1,265,019                  101

SD                      2,001,278             2,009,300                8,022

UT                      4,117,242             4,243,574              126,332

WY                      1,240,525             1,318,713               78,188

AZ                     13,691,956            13,889,432              197,476

CA                   150,648,528           153,113,481             2,464,953

GUAM                      103,621               103,621                    -

HI                      3,865,137             3,918,808               53,671

NV                      4,781,274             4,781,274                    -

AK                      3,025,318             3,046,407               21,089

ID                      3,131,336             3,178,384               47,048

OR                     12,479,501            12,479,501                    -

WA                     19,817,854            21,149,900            1,332,046

Total                                                           $ 13,045,257
      *PA not included in National Total




                                           B-6

                                                         APPENDIX C



C H AR TS O F E X C E S S O B L I G ATI O N S



               Fiscal Years 1994 through 1996

                          (A)              (B)        (C)=(A)-(B)
                      Form-4513        Form-872
                      Obligation      Authorization     Excess
                        Amount          Amount        Obligations
CO - FY 1996           $ 12,457,663      $ 12,163,466    $ 294,197
MI - FY 1995             54,569,531        54,048,686      520,845
NY - FY 1994            107,840,643       107,819,093       21,550
WA - FY 1994             18,336,014        18,302,596       33,418
Total                                                    $ 870,010
                                                                            APPENDIX D



    M AJ O R R E P O R T C O N TR I B U TO R S


Office of the Inspector General

Shirley E. Todd – Acting Director, Financial Management Audits


Philip Rogofsky – Acting Audit Manager


John Beacham – Auditor-In-Charge


Cheryl Robinson – Writer/Editor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist, Pamela Kilgallon at (410) 966-5998. Refer to Common
Identification Number A-13-98-72008.
                                   APPENDIX E



S S A O R G AN I Z ATI O N AL C H AR T

